ti

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of the Kentucky
Captive Association, Inc., Missouri Captive Insurance
Association, North Carolina Captive Insurance
Association, Oklahoma Captive Insurance Association,
and Tennessee Captive Insurance Association, Inc., as
Amici Curiae in Support of Petitioner in 19-930, CIC
Services, LLC v. Internal Revenue Service, et al., were
sent via Three Day Service to the U.S. Supreme Court,
and 3 copies were sent via Three Day Service and email to the following parties listed below, this 24th day
of February, 2020:
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
pa trick@consovoymccarthy.com

Counsel for Petitioner
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
Supreme CtBriefs@USDOJ.gov

Counsel for Respondents

B ECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

K. Scott Hamilton
Counsel of Record
Kevin Doherty
Tony Greer
DICKINSON WRIGHT PLLC
500 Woodward Avenue
Suite 4000
Detroit, MI 48226
(313) 223-3500
KHamilton@dickinson-wright.com
William Young Webb
Of Counsel
WEBB & MORTON, PLLC
910 N. Sandhills Boulevard
Aberdeen, NC 28315
(910) 944-9555
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 24, 2020.

DonnaJ. Wof
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JU
LIE ANNE l<ERSHNER
1
~

01.iry Publfc, Slate ofOlllo
r.•!y CUinrnission Expires
februnry 21, 2023

